Department of Homeland Security
   Ofﬁce of Inspector General

                U.S. Immigration and Customs 
 

            Enforcement Identification of Criminal 
 

             Aliens in Federal and State Custody 
 

                 Eligible for Removal from the 
 

                          United States 
 





OIG-11-26                                          January 2011
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                JAN 10 2011
                                                             Security

                                         Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the U.S. Immigration and Customs
Enforcement's program for identifying criminal aliens eligible for removal from the
United States. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 
 


Background .........................................................................................................................2 
 


Results of Audit ...................................................................................................................4 
 


           Identification of Removable Criminal Aliens ..........................................................4 
 


           Documentation of Screening and Identification Activities ......................................8 
 


           Recommendations....................................................................................................9 
 


Management Comments and OIG Analysis ......................................................................10 
 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................12 
 

     Appendix B:           Management Comments to the Draft Report .......................................13 
 

     Appendix C:           Screening and Identification Process ...................................................15 
 

     Appendix D:           National Crime Information Center Severity Levels ...........................18 
 

     Appendix E:           Unverifiable Screening Cases ..............................................................19 
 

     Appendix F:           Major Contributors to This Report ......................................................20 
 

     Appendix G:           Report Distribution ..............................................................................21 
 


Abbreviations
     ACCESS                Agreements of Cooperation in Communities to Enhance Safety and
                           Security

     BOP                   Federal Bureau of Prisons 

     CAP                   Criminal Alien Program 

     DEPORT                Detention Enforcement and Processing Offenders by Remote 

                           Technology 

     DHS                   Department of Homeland Security 

     EARM                  ENFORCE Alien Removal Module 

     ENFORCE               Enforcement Case Tracking System

     ICE                   Immigration and Customs Enforcement 

     NCIC                  National Crime Information Center 

     USCIS                 U.S. Citizenship and Immigration Service 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Immigration and Customs Enforcement Criminal Alien
                   Program is responsible for identifying criminal aliens incarcerated
                   in federal, state, and local prisons and jails who are eligible for
                   removal from the United States. The objective of our audit was to
                   determine whether the Criminal Alien Program is identifying all
                   criminal aliens incarcerated in federal and state custody who are
                   eligible for removal. We reviewed a sample of foreign-born
                   inmates released in fiscal year 2009 from federal facilities
                   nationwide and from state facilities in California, Florida, New
                   York, and Texas.

                   The Criminal Alien Program was successful in screening and
                   identifying 99% of the criminal aliens eligible for removal from
                   the United States in federal custody during fiscal year 2009.
                   However, identification rates in two of the four states reviewed
                   were not as high. Specifically, the Criminal Alien Program did not
                   identify approximately 4% of removable criminal aliens in
                   California and 2% in Texas. Many of the released criminal aliens
                   had been convicted of serious offenses such as assault, firearms
                   possession, and distribution of narcotics. We attribute the
                   nonidentification to Criminal Alien Program agent staffing
                   challenges and increasing workload levels.

                   We also determined that the Criminal Alien Program did not
                   always record and retain critical information and documentation
                   for its screening and identification activities. As a result, the
                   Criminal Alien Program was unable to demonstrate that some
                   foreign-born inmates were screened, and Immigration and Customs
                   Enforcement’s management does not have the ability to identify
                   Criminal Alien Program performance gaps.

                   We are making three recommendations intended to increase the
                   effectiveness of the Criminal Alien Program.

                   The Immigration and Customs Enforcement agreed with all
                   recommendations and has already begun to take actions to implement
                   them. The agency’s response to our recommendations is summarized
                   and evaluated in the body of this report and included in its entirety as
                   Appendix B.
           ICE Identification of Criminal Aliens Eligible for Removal from the U.S. 


                                            Page 1

Background
                            The Criminal Alien Program (CAP) within the Immigration and
                            Customs Enforcement (ICE) Office of Enforcement and Removal
                            Operations is responsible for identifying, processing, and removing
                            criminal aliens1 incarcerated in federal, state, and local correctional
                            facilities throughout the United States. Criminal aliens who are
                            eligible for removal include aliens who have illegally entered the
                            United States who are convicted of any crime and legal permanent
                            residents who have been convicted of a removable offense as
                            defined by the Immigration and Nationality Act.2 According to the
                            Secure Communities April 2008 Comprehensive Plan to Identify
                            and Remove Criminal Aliens, ICE estimates that 300,000 to
                            450,000 criminal aliens who are eligible for removal are detained
                            each year at federal, state, and local correctional facilities. The
                            responsibility for identifying and removing criminal aliens is
                            shared among other ICE initiatives and programs.

                            CAP represents one element of ICE’s Agreements of Cooperation
                            in Communities to Enhance Safety and Security (ACCESS)
                            strategy. This strategy provides an umbrella of services to assist
                            local law enforcement agencies in identifying criminal aliens in
                            local communities. Among the other programs in ACCESS is
                            Secure Communities. Secure Communities assists in the
                            identification and removal of criminal aliens held in local and state
                            correctional facilities by using technology to share national, state,
                            and local law enforcement data, such as biometric information,
                            among agencies.

                            During fiscal year (FY) 2009, ICE reported that immigration
                            enforcement agents assigned to CAP teams (CAP agents) issued
                            approximately 212,000 immigration detainers nationwide. A
                            detainer, Immigration Form I-247, requests the correctional facility
                            housing the alien contact ICE prior to releasing the criminal alien
                            to allow time for ICE to assume custody. ICE achieved this
                            through the work of 126 CAP teams assigned to 24 field offices,
                            186 sub-field offices, and the Detention Enforcement and
                            Processing Offenders by Remote Technology (DEPORT) Center.
                            These teams are responsible for screening and identifying criminal
                            aliens at 4,374 facilities, of which 1,281 are federal and state
                            correctional facilities. For purposes of this report, screening

1
  An alien is any person not a citizen or national of the United States. A criminal alien is an alien who has 
 

been convicted of a crime.
 

2
  Crimes that are considered removable offenses for any alien in and admitted to the United States are 
 

described in 8 USC 1227(a).
 



               ICE Identification of Criminal Aliens Eligible for Removal from the United States 


                                                    Page 2

                            includes the electronic records check and interview that CAP
                            agents may conduct to determine if a foreign-born inmate is
                            removable. We determined that CAP agents identified a
                            removable criminal alien when they issued a detainer. Appendix C
                            describes the screening and identification process.

                            Our review focused on determining whether CAP was identifying
                            criminal aliens in federal and state custody who were eligible for
                            removal from the United States. Figure 1 provides the top four
                            locations of foreign-born inmates incarcerated in state prisons,
                            based on ICE’s April 2009 risk assessment.3

                            Figure 1. Percentage of Foreign-born Inmate Population in
                            State Custody Nationwide
                                                    Texas
                                                                                      New York
                                                     23%
                                                                                        9%




                                                                                                        Florida
                                                                                                          4%




                                                                                                  Remaining
                                 California                                                     states and US
                                   28%                                                            territories
                                                                                                     36%



                            We reviewed cases of foreign-born inmates in federal custody
                            nationwide and in state custody in California, Texas, Florida, and
                            New York. These states house approximately 64% of the foreign-
                            born inmate population nationwide.




3
    ICE Criminal Alien Program Risk Assessment, April 2009. We did not verify this information.


                ICE Identification of Criminal Aliens Eligible for Removal from the United States 
 


                                                     Page 3
 

Results of Audit
     ICE, through CAP, was successful in identifying 99% of the criminal aliens
     eligible for removal from the United States in federal custody during FY 2009.
     However, identification rates in two of the four states reviewed were not as high.
     ICE agents did not identify approximately 4% of criminal aliens eligible for
     removal in California and 2% in Texas. We attribute the nonidentification to
     CAP agent staffing challenges and increasing duties. Identification of criminal
     aliens is only one responsibility for CAP agents. These release rates equate to the
     release of 890 of 49,033 criminal aliens into the United States in FY 2009, many
     of whom are recidivist criminals who pose a significant public safety risk.

     We also determined that CAP did not always record and retain critical
     information and documentation for its screening and identification activities. As a
     result, CAP was unable to demonstrate that some foreign-born inmates were
     screened, and ICE management does not have the ability to identify CAP
     performance gaps.

     Identification of Removable Criminal Aliens
            Despite a determined effort by CAP agents nationwide, they did not
            identify all removable criminal aliens in federal and state custody. A
            statistically representative sample of foreign-born inmates released from
            federal and state custody was reviewed to determine whether ICE was
            identifying and placing detainers on all removable criminal aliens. Table
            1 contains a breakdown of the population of foreign-born inmates released
            from federal and selected state custody during FY 2009. It also includes
            the number of sample cases drawn from federal and state facilities.

                     Table 1. Released Foreign-born Inmates and Sample Sizes

                         Sample Section         Released Foreign-born              Sample Size
                                                       Inmates
                             Federal                    26,213                          204
                            California                  13, 418                         104
                              Texas                     5, 242                           41
                             Florida                     2,249                           17
                            New York                     1,911                           15
                              Total                       49,033                        381


                     Federal Facilities

                     Of the 204 federal sample cases reviewed, CAP agents did not
                     identify 2 removable criminal aliens released from federal custody


         ICE Identification of Criminal Aliens Eligible for Removal from the United States 


                                              Page 4

            in FY 2009. This represents 1% of the total federal sample. The
            following are details of the removable criminal aliens who were
            released from federal custody:

                 •	 Case 1: A criminal alien from Mexico was sentenced to 8
                    months in a federal prison for illegal re-entry. CAP agents
                    had previously identified and deported this criminal alien
                    from the United States in 2006. The criminal alien’s prior
                    criminal record includes convictions of assault with a
                    deadly weapon and possession of a controlled substance.
                    According to the Federal Bureau of Prison’s (BOP)
                    records, the criminal alien was released into the
                    community.

                 •	 Case 2: A criminal alien from Mexico was sentenced to 30
                    months in federal custody for illegal re-entry. The criminal
                    alien was convicted for lewd conduct to a child in 2004 and
                    was previously deported in 2006. The criminal alien is
                    now in state custody, and ICE did identify and place a
                    detainer on this criminal alien while in state custody.

            State Facilities

            CAP agents did not identify approximately 4% (or 4 of 104 in our
            sample) of removable criminal aliens in California and 2% (or 1 of
            41) of removable criminal aliens in Texas prior to their release
            from state custody. The following are examples of some of the
            criminal aliens who were not removed but were released from state
            custody into the general public:

                 •	 A criminal alien from Mexico who had completed a 17-
                    month state prison sentence for possession of narcotics was
                    released into the state of California. This criminal had
                    entered the United States illegally and had prior convictions
                    for battery to a public official and burglary.

                 •	 A criminal alien from Mexico who had entered the United
                    States illegally was arrested for second-degree burglary and
                    was incarcerated for 6 months in a state facility. This
                    criminal alien was convicted in 2005 of felony charges that
                    included possession of a controlled substance with the
                    intent to sell.

                 •	 A lawful permanent resident from El Salvador was arrested
                    and convicted of a felony for possession and distribution of


ICE Identification of Criminal Aliens Eligible for Removal from the United States 


                                     Page 5

                                    narcotics by the state of California in October 2001. The
                                    individual was subsequently sentenced and served more
                                    than 6 years in prison before being released in July 2009.

                           Of the cases sampled in Florida and New York, we did not identify
                           any instances where CAP agents did not identify a removable
                           criminal alien. For the remaining sample cases reviewed, we
                           determined that (1) CAP agents had identified the removable alien
                           and placed a detainer, (2) the inmate was a legal permanent
                           resident whose crimes did not make him or her eligible for
                           removal, (3) the inmate was a U.S. citizen, or (4) CAP was unable
                           to verify the inmate’s legal status.

                           CAP Team Staffing and Workload Levels

                           CAP’s success in identifying the vast majority of the removable
                           criminal aliens incarcerated in federal and state prisons is
                           commendable, given the number and geographic dispersion of
                           prisons and jails nationwide and the ever-increasing number of
                           foreign-born inmates identified at these facilities. However,
                           CAP’s ability to maintain this level of performance at the federal
                           and state levels in the future will depend on ICE’s ability to reduce
                           the vacancy rates for CAP agents and handle the expected increase
                           in criminal referrals generated by the Secure Communities
                           program.

                           CAP has a number of unfilled staff positions. For example, the
                           vacancy rate for the Los Angeles, California, CAP teams was 25%
                           in April 2009, while the Dallas, Texas, CAP teams had a 20%
                           vacancy rate in March 2009. By the fourth quarter of FY 2010, the
                           CAP agent vacancy rates in California and Texas were 13% and
                           15%, respectively. Nationally, 12% (159) of the 1,341 positions
                           assigned to CAP were unfilled at the fourth quarter of FY 2010.
                           CAP needs to be fully staffed to keep abreast of the increased
                           workload generated by the expanding Secure Communities
                           program.

                           During FY 2009, Secure Communities identified 95,661 matches
                           to criminal aliens, and by the third quarter of FY 2010, Secure
                           Communities had identified 191,952 matches to criminal aliens, an
                           increase of more than 100%.4 These matches are sent to the ICE

4
 Matches include aliens who had a match in the Automated Biometric Identification System and who were
charged with or convicted of any level offense. Duplicate entries may exist for cases, as an individual may
go through interoperability several times for one unique case, e.g., an individual who is transferred from
one correctional facility to another correctional facility and has fingerprints submitted at both locations.


              ICE Identification of Criminal Aliens Eligible for Removal from the United States 
 


                                                   Page 6
 

                          Law Enforcement Support Center to make initial immigration
                          status and National Crime Information Center (NCIC)-level
                          determinations. The Law Enforcement Support Center sends the
                          compiled data to the local CAP field offices for detainers and other
                          enforcement actions, as appropriate, thus increasing the volume of
                          CAP’s workload.

                          Since CAP was initiated in 2007 and the Secure Communities
                          program was established in 2008, ICE management has not
                          conducted a workload assessment to determine the number of staff
                          needed to meet all mission requirements. CAP agents perform
                          many duties, including coordinating with prisons and jails,
                          screening foreign-born inmates, lodging detainers for removable
                          criminal aliens, preparing prosecutions, transporting criminal
                          aliens to ICE detention centers, pursuing at-large criminal aliens,5
                          serving as vehicle control officers or firearms instructors, escorting
                          criminal aliens to their native countries, and participating in
                          temporary duty assignments. According to the CAP agent’s
                          position description, agents are expected to devote up to 75% of
                          their time to detention, deportation, transportation, and escorting,
                          leaving little time for screening and identification duties.
                          Performing this broad scope of activities in combination with the
                          staffing vacancies reduces the amount of time CAP agents can
                          dedicate to identifying and screening foreign-born inmates.

                          Criminal Aliens Released

                          Based on our statistical sample results, 2% of 381 (or 7) removable
                          criminal aliens were not identified. In other words, 890 (262
                          federal and 628 state) out of a total population of 49,033
                          removable criminal aliens were not identified. Many of the 890
                          criminals are believed to have been Level 1 recidivist criminals.
                          Level 1 are the most egregious criminal aliens, who pose a
                          significant public safety risk. The seven unidentified removable
                          criminal aliens in our sample were Level 1 criminals. (Appendix D
                          provides more information on NCIC levels.)




5
 At-large criminal aliens are aliens who ICE identifies as removable after they have been released from
custody. This may occur when a legal permanent resident is released on bond awaiting trial but is later
convicted of a deportable crime.


              ICE Identification of Criminal Aliens Eligible for Removal from the United States 


                                                   Page 7

           Documentation of Screening and Identification Activities
                    CAP agents do not always record and retain critical information and
                    documentation used to determine the status of foreign-born inmates
                    incarcerated in federal and state prisons. This is because ICE procedures
                    do not require agents to record and retain such information. As a result,
                    ICE is unable to provide assurance that its CAP agents are screening all
                    potentially removable foreign-born inmates incarcerated in federal and
                    state correctional facilities.

                             Rosters of Foreign-born Inmates

                             CAP agents assigned to field offices and the DEPORT Center rely
                             heavily on the BOP and correctional facilities to identify
                             incarcerated foreign-born individuals. At the federal level, CAP
                             agents assigned to the DEPORT Center have been provided access
                             to the BOP database, Sentry.6 Through searches of Sentry, CAP
                             agents can generate lists or rosters of self-proclaimed foreign-born
                             inmates incarcerated in federal prisons nationwide. Self-
                             proclaimed foreign-born inmates are those who have stated during
                             current or previous arrests that they were born in a country other
                             than the United States; this information is recorded in the inmates’
                             prison records. At the state level, CAP agents generally rely on the
                             individual correctional facilities to provide rosters of either self-
                             proclaimed foreign-born inmates or all inmates incarcerated at the
                             facility.

                             However, CAP procedures do not require agents to keep copies of
                             these rosters, and most field offices do not retain them. Six of
                             eight Field Office Directors interviewed said that they discard the
                             rosters when they are finished with them. Supervisors at the
                             DEPORT Center also said that they discard the rosters. Without
                             these rosters, ICE cannot verify the number, type, and location of
                             foreign-born inmates identified at federal and state facilities. For
                             that reason, it is important that ICE take action to ensure that its
                             field offices retain copies of all rosters of documented and foreign-
                             born inmates incarcerated in federal and state correctional
                             facilities.




6
    Sentry is not an acronym; it is the generic name of BOP’s inmate tracking system.


                 ICE Identification of Criminal Aliens Eligible for Removal from the United States 


                                                      Page 8

                         Documentation in Enforcement Case Tracking System

                         CAP agents do not always document the results of all screening
                         and identification activities in ICE’s Enforcement Case Tracking
                         System (ENFORCE). Until recently, ICE procedures did not
                         require CAP agents to record encounters with documented and
                         self-proclaimed foreign-born nationals unless the agents had issued
                         a detainer. Thus, CAP agents were unable to provide evidence to
                         show that 12 cases (1 federal and 11 state) of the 381 cases in our
                         sample had been screened, or whether the screening was conducted
                         in accordance with CAP requirements. Appendix E contains more
                         information on these 12 cases.

                         We also identified instances where agents did not record critical
                         information in ENFORCE in accordance with CAP procedures.
                         ICE’s policies require agents to record detainers in the ENFORCE
                         Alien Removal Module (EARM). However, we identified 71
                         instances where EARM case records did not indicate that agents
                         had issued a detainer despite evidence indicating that the criminal
                         alien was later deported. It is possible that in these instances, CAP
                         agents7 issued a paper detainer but did not record the information
                         in ENFORCE. The failure to ensure that all encounters with
                         foreign-born nationals are fully recorded in ENFORCE prevents
                         ICE from verifying whether the screenings occurred, or whether
                         they were complete and fully documented according to agency
                         policies and procedures. It also limits ICE’s ability to track and
                         assess CAP agent workload and overall performance to determine
                         whether its current allocation of agents is sufficient to meet
                         existing and future program needs.

                Recommendations
                         We recommend that the Executive Associate Director for
                         Enforcement and Removal Operations:

                         Recommendation #1: Conduct a workload analysis of CAP to
                         determine whether the current allocation of immigration
                         enforcement agents is sufficient to meet future CAP mission
                         requirements. If the analysis identifies a gap in meeting mission
                         requirements, develop a plan to identify and obtain appropriate
                         resources to meet mission requirements.


7
 Other agents such as the U.S. Customs and Border Protection agents may have issued some of these
detainers. However, without complete documentation, we were unable to determine how many were issued
by CAP agents versus other agents.


             ICE Identification of Criminal Aliens Eligible for Removal from the United States 


                                                  Page 9

                   Recommendation #2: Require that all screenings and
                   identifications of foreign-born individuals incarcerated in federal,
                   state, and local correctional facilities be documented and recorded
                   in ENFORCE.

                   Recommendation #3: Develop and implement quality assurance
                   procedures to ensure that all screenings and identifications of
                   foreign-born individuals incarcerated in federal, state, and local
                   correctional facilities are documented and recorded in ENFORCE
                   according to agency policies and procedures.

Management Comments and OIG Analysis
                   The Immigration and Customs Enforcement concurred with our
                   recommendations and stated it has already begun to formulate
                   plans to implement the recommendations contained in this report.
                   We have included a copy of the management comments in their
                   entirety in Appendix B. The following is an evaluation of ICE’s
                   comments.

                   Management Comments to Recommendation 1
                   Concur: ICE has conducted an analysis of what is needed to
                   perform 100-percent screenings throughout the United States. ICE
                   further noted that the report, including a plan to identify resources,
                   is under internal ICE review and will be forwarded to the DHS
                   OIG at a later date.

                   OIG Analysis: We concur that the steps that ICE is taking, and
                   plans to take, begin to satisfy this recommendation. This
                   recommendation will remain open until we have obtained and
                   reviewed ICE’s analysis of CAP, to include identifying whether
                   the current allocation of immigration enforcement agents is
                   sufficient to meet future CAP mission requirements. If applicable,
                   we will also review ICE’s plan to identify and obtain the
                   appropriate resources needed to meet current and future mission
                   requirements.

                   Management Comments to Recommendation 2
                   Concur: ICE plans to create and implement a clear policy for all
                   field offices that requires all screening and identification of
                   incarcerated foreign-born individuals be documented in
                   ENFORCE. ICE anticipates implementing this policy by
                   December 31, 2010. As part of this policy, ICE will establish a
                   quality assurance program to ensure the accuracy and
                   completeness of the records.


       ICE Identification of Criminal Aliens Eligible for Removal from the United States 


                                            Page 10

            OIG Analysis: We concur that the steps that ICE is taking, and
            plans to take, begin to satisfy this recommendation. This
            recommendation will remain open until we have obtained and
            reviewed ICE’s policy for the field offices requiring all screening
            and identification of incarcerated foreign-born individuals be
            documented in ENFORCE. We will also obtain and review a copy
            of the quality assurance program ICE establishes to ensure the
            accuracy and completeness of the records.

            Management Comments to Recommendation 3
            Concur: ICE will implement a policy that provides reasonable
            assurance of the accuracy and completeness of data into
            ENFORCE. ICE will analyze data quality reports to ensure ICE is
            achieving consistent and accurate data, complete needed changes
            to ENFORCE, and analyze data quality during visits to field
            offices. ICE maintains that these system refinements, new policies
            and procedures, and site visits will ensure data quality. Further, as
            part of the annual statement of assurances, ICE will initiate an
            independent quality assurance process by its Office of Assurance
            and Compliance.

            OIG Analysis: We concur that the steps that ICE is taking, and
            plans to take, begin to satisfy this recommendation. This
            recommendation will remain open until we have reviewed the
            policy for field offices requiring all screening and identification of
            incarcerated foreign-born individuals be documented in
            ENFORCE. Further, we need to obtain and review the quality
            assurance procedures developed and implemented demonstrating
            how ICE will ensure that all screenings and identifications of
            foreign-born individuals incarcerated are documented and recorded
            in ENFORCE.




ICE Identification of Criminal Aliens Eligible for Removal from the United States 
 


                                     Page 11
 

Appendix A
Purpose, Scope, and Methodology

                     This report provides the results of our work to determine whether
                     CAP identifies all criminal aliens in federal and state custody who
                     are eligible for removal from the United States. To achieve our
                     objective, we—

                          •	 Interviewed ICE headquarters officials, Field Office
                             Directors, Assistant Field Office Directors, Supervisory
                             Detention and Deportation Officers, and Immigration
                             Enforcement Agents regarding CAP’s efforts to identify
                             criminal aliens.
                          •	 Reviewed prior audit reports, relevant laws, regulations,
                             standard operating procedures, policies, and ICE’s
                             organizational charts.
                          •	 Obtained foreign-born inmate release data for FY 2009
                             from the BOP nationwide; and from departments of
                             correction for California, Florida, New York, and Texas.
                             The inmate’s country of birth record is generally based on
                             the inmate’s self-admission during current or previous
                             arrests. We did not verify whether the lists were all-
                             inclusive.
                          •	 Reviewed cases for 381 foreign-born inmates released in
                             FY 2009 from federal or state custody in California,
                             Florida, New York, or Texas.
                          •	 Tested the sampled cases with the assistance of ICE agents
                             in field offices, through electronic screening of the
                             immigration and law enforcement systems.
                          •	 Conducted fieldwork at 10 ICE field offices.
                          •	 Assessed whether ICE agents documented the identification
                             of removable criminal aliens by comparing foreign-born
                             inmate data obtained from federal and state prison records
                             with data recorded in ENFORCE.

                     We conducted our audit between February 2009 and August 2010
                     under the authority of the Inspector General Act of 1978, as
                     amended, and according to generally accepted government
                     auditing standards. Those standards require that we plan and
                     perform the audit to obtain sufficient, appropriate evidence to
                     provide a reasonable basis for our findings and conclusions based
                     on our audit objectives. We believe that the evidence obtained
                     provides a reasonable basis for our findings and conclusions based
                     on our audit objective.




             ICE Identification of Criminal Aliens Eligible for Removal from the U.S. 
 


                                             Page 12
 

Appendix B
Management Comments to the Draft Report




                                                                           OffIce O/IM Chief Flno<IC/ol Officer

                                                                           U.S.   n.,,"n,ent olllo_land Security
                                                                           soo 12~ SbU~ SW
                                                                           W.shington, DC 20536


                                                                           u.s. Inunigration
                                                                           and Customs
                                                                           Enforcement

                                              November 23, 2010


      MEMORANDUM FOR:                 Anne L. Richards
                                      AsSistant Inspec r    eneral for Audits

      FROM:                    lr.~:            e ar
                              (J Chief Fmanclal Officer
                                  ¥




      SUBJECT:                        Management Response to OIG Draft, "Us. Immigration and
                                      Customs En/orcementIdentificalion 0/ Criminal Aliens in
                                      Federal and State Custody Eligible/or Removalfrom the United
                                      Slates - FOR OFFICIAL USE ONLY (FOUO) - DIG Project No:
                                      09-022~AUD-ICE dated October 5, 2010


     U,S. Immigration and Customs Enforcement (ICE) appreciates the opportunity to conunent on
     the draft report. We have reviewed and concur with all reconunendations. Attached is our
     response to each reconunendation. ICE will continue to resolve each of the recommendations
     and ask that the office of the Inspector General consider them resolved and open.

     Should you have any questions or concerns, please contact Michael Moy, DIG Portfolio
     Manager. at (202) 732-6263, or bye-mail al Michae1.Moy@dhs.gov.




     Attachment




              ICE Identification of Criminal Aliens Eligible for Removal from the U.S. 
 


                                               Page 13
 

Appendix B
Management Comments to the Draft Report

                                                                                            Attachment
                   Response!! ror QIG Draft Report Recommendations - CAP Report


      R~ommendationIH:'Conduct a workload analysis of CAP to determine whether the current
      allocation of immigration enforcement agents is sufficient to meet future CAP mission
      requirements. If the analysis identifies a gap in meeting mission requirements, develop a plan
      to identify and obtain appropriate resources to meet mission requirements.

      ICE Response: ICE concurs. ICE has conducted an analysis of what is needed to perform
      lOO-percent screenings throughout the United States. The report, including a plan to identify
      resources, is under internal ICE review and will be forwarded at a later date.

      Pending completion of the internal review, ICE requests that this recommendation be
      considered Resolved and Open.

      Recommendation #2: Require that all screenings and identifications offoreigo-bom
      individuals incarcerated in federal, -state, and local correctional facilities be documented and
      recorded in ENFORCE.

      ICE Response: ICE concurs. ICE will create and implement a clear policy for all field offices
      that requires all screening and identification of incarcerated foreign-born individuals be
      documented in ENFORCE. ICE anticipates implementing this policy by December 31, 201 O.
      As part ofthis policy, ICE will establish a quality assurance program to ensure the accuracy
      and completeness of the records.

      Pending completion oftbe screening and identification policy, ICE requests that this
      recommendatio~ be considered Resolved and Open.

      Recommendation #3: Develop and implement quality assurance procedures to ensure that all
      screenings and identifications offoreign-born individuals incarcerated in federal, state, and
      local correctional facilities are documented and recorded in ENFORCE according to agency
      policies and procedures.

      ICE Response: ICE concurs. As part ofthe screening and identification policy discussed
      above, by December 3I, ICE will implement a policy that provides reasonable assurance of the
      accuracy and completeness of data into ENFORCE. By Mardi 31, 2011, ICE will analyze
      data quality reports to ensure ICE is achieving oonsistent and accurate data. By June 30, 2011,
      ICE will complete needed changes to ENFORCE. Also, TCE will continue to analyze data
      quality during visits to field offices. These system refinements, new policies and procedures,
      and site visits will ensure data quality.

      As part of the annual statement of assurances, ICE will initiate an independent quality
      assurance (QA) process by its Office of Assurance and Compliance (OAC).

      Pending development and implementation of the reporting mechanisms cited in the response,
      ICE requests that tbis recommendation be oonsidered Resolved and Open.




           ICE Identification of Criminal Aliens Eligible for Removal from the United States 
 


                                                   Page 14
 

Appendix C
Screening and Identification Process

                      Screening
                      CAP agents conduct electronic screenings of self-proclaimed
                      foreign-born inmates to determine whether they are eligible for
                      removal from the United States. The DEPORT Center screens
                      foreign-born inmates in 79 of the 128 federal facilities, and CAP
                      agents at field offices screen the remaining 49 federal facilities and
                      all state facilities.

                      Foreign-born inmate data are obtained either by CAP agents or
                      through inmate rosters provided by correctional facilities. CAP
                      agents at the DEPORT Center have access to the BOP’s database
                      known as Sentry. Through searches of the Sentry database, the
                      agents identify inmates whose BOP records indicate that they were
                      born in a country other than the United States. CAP agents in field
                      offices coordinate with federal and state correctional facilities to
                      obtain, at a minimum, rosters of self-proclaimed foreign-born
                      inmates who are admitted to or about to be released from state
                      custody. Once the foreign-born inmate data are obtained, CAP
                      agents conduct a records check that includes searching
                      immigration and law enforcement databases to determine the
                      inmates’ citizenship or immigration status. When necessary,
                      agents also interview foreign-born inmates to gather more
                      information to help determine their eligibility for removal.
                      Interviews may be conducted either in person, by telephone, or
                      through a video-teleconference.

                      The following is a list of databases used in the screening process,
                      along with a brief description:

                      Automated Biometric Identification System: The Automated
                      Biometric Identification System is a DHS-wide system for the
                      collection, processing, and verification of biometric and limited
                      biographic information for DHS national security, law
                      enforcement, immigration, intelligence, and other DHS mission-
                      related functions. Available information includes fingerprints,
                      photographs, name, nationality, and other descriptive data related
                      to the encounter of a subject.

                      Central Index System: Central Index System is a database
                      system maintained by the U.S. Citizenship and Immigration
                      Service (USCIS). It contains information on the status of
                      applicants seeking immigration benefits, including lawful
                      permanent residency and naturalization. It also includes
                      information regarding aliens who illegally entered the United

              ICE Identification of Criminal Aliens Eligible for Removal from the U.S. 


                                              Page 15

Appendix C
Screening and Identification Process

                       States, aliens who have been issued employment authorization
                       documents, and other individuals subject to the provisions of the
                       Immigration and Nationality Act.

                       Computer Linked Application Information Management
                       System: The Computer Linked Application Information
                       Management System is the USCIS case management system that
                       supports the adjudication of all applications for naturalized
                       citizenship by non-U.S. citizens.

                       Consular Consolidated Database: The Consular Consolidated
                       Database is a web-based tool administered by the Bureau of
                       Consular Affairs at the Department of State. Available records
                       include issued visas, active visas, expired visas, revoked visas,
                       visas reported lost or stolen, blank visa foils that have been
                       reported lost or stolen, applicants who have been approved but not
                       yet issued visas, applicants who have been denied or refused a
                       visa, pre-applicants, and pending applications.

                       Integrated Automated Fingerprint Identification System:
                       Integrated Automated Fingerprint Identification System is the
                       Federal Bureau of Investigation’s national fingerprint and criminal
                       history system that responds to requests 24 hours a day, 365 days a
                       year to help local, state, and federal law enforcement agencies
                       solve and prevent crime and catch criminals and terrorists. This
                       system is the largest biometric database in the world, and includes
                       not only fingerprints but also corresponding criminal histories;
                       mug shots; scars and tattoo photos; physical characteristics such as
                       height, weight, and hair and eye color; and aliases.

                       National Crime Information Center (NCIC): NCIC is the
                       electronic clearinghouse of crime data that can be accessed by
                       virtually every criminal justice agency nationwide, 24 hours a day,
                       365 days a year. NCIC helps criminal justice professionals
                       apprehend fugitives, locate missing persons, recover stolen
                       property, and identify terrorists.

                       Passport Information Electronic Records System: The Passport
                       Information Electronic Records System is a Department of State
                       web-based system used for querying and viewing U.S. passport
                       application records. Available information includes all records of
                       issued and expired passports; not-issued applications; and
                       destroyed, stolen, or lost passports. Consular records of overseas
                       births and deaths can also be found in this system. ICE agents


           ICE Identification of Criminal Aliens Eligible for Removal from the United States 
 


                                                Page 16
 

Appendix C
Screening and Identification Process

                           access the Passport Information Electronic Records System
                           through the Consular Consolidated Database.

                           Public Access to Court Electronic Records: Public Access to
                           Court Electronic Records, administered by the Administrative
                           Office of the U.S. Courts, is an electronic public access service that
                           allows users to obtain case and docket information from federal
                           appellate, district, and bankruptcy courts, and the Public Access to
                           Court Electronic Records Case Locator via the Internet. It is
                           provided by the federal judiciary in keeping with its commitment
                           to providing public access to court information via a centralized
                           service.

                           TECS8: TECS is owned and managed by U.S. Customs and
                           Border Protection. It was designed to provide controlled access to
                           a large database of information about suspects and to interface with
                           a number of other law enforcement systems, such as NCIC.

                           Identification
                           Once CAP agents determine that an inmate is removable, they
                           issue an immigration detainer (Form I-247, Notice of Action) to
                           identify a criminal alien incarcerated in a federal, state, or local
                           prison or jail who is eligible for removal from the United States.
                           An immigration detainer notifies authorities of ICE’s intent to take
                           custody of an individual in that facility for the purpose of
                           instituting removal proceedings. It also requests that the local law
                           enforcement agency detain a named individual for up to 48 hours
                           after that person would otherwise be released (excluding
                           Saturdays, Sundays, and holidays) in order to allow ICE an
                           opportunity to assume custody of that individual. The 48-hour
                           period begins to run when the named individual is no longer
                           subject to detention by the law enforcement agency.9

                           CAP screening and identification activities are tracked in the
                           ENFORCE Alien Booking Module, which contains information
                           relating to individual aliens, such as the alien identification
                           number, primary citizenship, detainer details, and the severity level
                           of the crime committed or charged as designated by the NCIC.



8
 TECS is not an acronym.
 

9
 Although detainers generally follow criminal aliens transferred between federal, state, and local prisons 
 

and jails, there is no requirement that they do so. 
 



               ICE Identification of Criminal Aliens Eligible for Removal from the United States 


                                                    Page 17

  Appendix D
  National Crime Information Center Severity Levels


                     List of National Crime Information Center
                              Crimes by Severity Level
                                 October 1, 2008 through June 30, 2010


                                           NCIC Levels
     Level 1 Crimes                       Level 2 Crimes                           Level 3 Crimes
Homicide                           Arson                                    Sovereignty
Kidnapping                         Burglary                                 Military
Sexual Assault                     Larceny                                  Immigration
Robbery                            Stolen Vehicles                          Extortion
Aggravated Assault                 Forgery                                  Damage Property
Threats                            Fraud                                    Family Offenses
Extortion – Threat to Injure       Embezzlement                             Gambling
Person
Sex Offenses                       Stolen Property                          Commercialized Sex
                                                                            Offenses
Cruelty Toward Child, Wife         Damage Property                          Liquor
                                   w/Explosive
Resisting an Officer               Traffic Offenses                         Obstructing the Police
Weapon                             Smuggling                                Bribery
Hit and Run                        Money Laundering                         Health and Safety
Drugs (Sentence > 1 year)          Property Crimes                          Civil Rights
                                   Drugs (Sentence < 1 year)                Invasion of Privacy
                                                                            Elections Laws
                                                                            Conservation
                                                                            Public Order Crimes




                  ICE Identification of Criminal Aliens Eligible for Removal from the U.S. 
 


                                                  Page 18
 

Appendix E
Unverifiable Screening Cases

                      CAP could not determine whether agents had screened 12 foreign-
                      born cases in our sample based on the information available in
                      ENFORCE. Table 2 lists these cases.

                      Table 2. Unverifiable Screening Cases
                           Sample Section             Sample          Screening           Screening
                                                       Size           Unknown             Unknown
                                                                                           (percentage)

                               Federal                      204             1               0.5%
                              California                    104             7                6.7%
                                Texas                        41             2                5.0%
                               Florida                       17             2               12.0%
                              New York                       15             -                  -

                      In addition, CAP could not determine whether these 12 sampled
                      inmates were eligible for removal from the United States based on
                      the electronic information available. For example, of the 12
                      sampled cases—

                           •	 CAP agents could not determine or verify the legal status of
                              10 foreign-born inmates through electronic screening. In
                              seven of these cases, there was some indication that the
                              foreign-born inmate may have been a U.S. citizen, but
                              because CAP did not require agents to document all
                              screenings in FY 2009, CAP agents were unable to verify
                              the information.

                           •	 CAP agents were unable to determine whether two foreign-
                              born inmates who were lawful permanent residents were
                              eligible for removal. CAP officials explained that a review
                              of the inmate’s final conviction records was necessary to
                              determine removability, but this information was not
                              readily available at the time of our review. CAP agents
                              may have reviewed the conviction records at the time of the
                              inmate’s release; however, without documentation the CAP
                              officials could not verify that the inmate had been screened.




          ICE Identification of Criminal Aliens Eligible for Removal from the United States 
 


                                               Page 19
 

Appendix F
Major Contributors to This Report


                     Richard Johnson, Director
                     Yesi Starinsky, Audit Manager
                     Beverly Bush, Audit Manager
                     Paul Jarrett, Program Analyst
                     Gloria Medina-Ortiz, Auditor
                     Amy Nase, Auditor
                     Ignacio Yanes, Program Analyst
                     Nga Dang, Program Analyst
                     Hortencia Francis, Program Analyst
                     Stephanie Moore, Auditor
                     Colin Sullivan, Auditor
                     Paul Exarchos, Referencer




             ICE Identification of Criminal Aliens Eligible for Removal from the U.S. 
 


                                             Page 20
 

Appendix G
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary, Management
                      Assistant Secretary, ICE
                      ICE Audit Liaison
                      Officer for Civil Rights and Civil Liberties


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              ICE Identification of Criminal Aliens Eligible for Removal from the U.S. 
 


                                              Page 21
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
